       U.S. DEPARTMENT OF LABOR
      OFFICE OF INSPECTOR GENERAL
              OFFICE OF AUDIT

ASSISTANT INSPECTOR GENERAL’S REPORT ON
    APPLYING AGREED-UPON PROCEDURES

  FOR THE YEAR ENDED SEPTEMBER 30, 2000




                              Report Number: 22-01-011-13-001
                              Date Issued:
                                                         Table of Contents

Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Assistant Inspector General’s Report on Applying
 Agreed-Upon Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Agreed-Upon Procedures and Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                                  ACRONYMS


APO      Agency Payroll Office
CFO      Chief Financial Officer
CSRS     Civil Service Retirement System
DOL      Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EE       Employee Express
FEHB     Federal Employee Health Benefits
FERS     Federal Employee Retirement System
GAO      General Accounting Office
IDEA     Interactive Data Extraction & Analysis
IPS      Interactive Payroll System
OA       Office of Audit
OCFO     Office of Chief Financial Officer
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      Office of Personnel Management
RITS     Retirement and Insurance Transfer System
SGL      Standard General Ledger




                                         i
                                      EXECUTIVE SUMMARY


We performed the procedures specified in OMB Bulletin 01-02 Appendix I to assist the U.S. Office of
Personnel Management (OPM) in assessing the reasonableness of retirement, health and life insurance
withholdings/contributions as well as enrollment information submitted via the Semiannual Headcount
Report.

This special report includes the agreed-upon procedures results for retirement, health and life insurance
withholdings/contributions, and employee head count information submitted to OPM.


What We Did and What the Report Contains

Our procedures were performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller General of
the United States. In accordance with these standards, we are reporting on applying the agreed-upon
procedures on the retirement, health and life insurance withholdings/contributions and employee head
count submitted by the Department of Labor to OPM. The report includes the agreed-upon procedures
performed and the detailed results of those procedures.

We performed certain agreed-upon procedures which assessed the reasonableness of the retirement,
health and life insurance withholdings/contributions and employee head count submitted to the OPM. No
significant results were revealed from our application of procedures. We were not engaged to, nor did
we perform an audit of the retirement, health and life insurance and employee head count of the
Department of Labor.




                                                     1
                      ASSISTANT INSPECTOR GENERAL’S REPORT ON
                          APPLYING AGREED-UPON PROCEDURES

Office of Personnel Management
The Honorable Patrick E. McFarland,
   Inspector General

We have performed the procedures described in the OMB Bulletin 01-02 Appendix I, which were
agreed to by the Inspector General, the Chief Financial Officer, and the Associate Director for
Retirement and Insurance Service of the OPM, solely to assist with respect to the employment
withholdings and employer contributions reported on the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement for the payroll periods ended November 20, 1999;
January 15, 2000; and March 11, 2000; and the Supplemental Semiannual Headcount Report as of March
31, 2000. This engagement to apply agreed-upon procedures was performed in accordance with the
standards established by the American Institute of Certified Public Accountants. The sufficiency of the
procedures is solely the responsibility of the Inspector General, the Chief Financial Officer, and the
Associate Director for Retirement and Insurance of OPM. Consequently, we make no representation
regarding the sufficiency of the procedures described below either for the purpose for which this report
has been requested or for any other purpose.

We were not engaged to, and did not perform an audit, the objective of which would be the expression of
an opinion on the withholding and contributions of health benefits, life insurance, retirement and employee
head count of the Department of Labor. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that would have been
reported to you.

This report is intended solely for the information and use of the U.S. Department of Labor, the Inspector
General, the Chief Financial Officer, and the Associate Director for Retirement and Insurance of the
U.S. Office of Personnel Management and is not intended to be and should not be used by anyone other
than these specified parties. This report should not be used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their purposes thereof.
However, this report is a matter of public record and its distribution is not limited.




John J. Getek
Assistant Inspector General
U.S. Department of Labor


December 22, 2000
                                AGREED-UPON PROCEDURES

      Agreed-Upon Procedures Performed                                   Results of Procedures
Foot the payroll register or payroll data file that        The OCFO provided us with the payroll database.
contains the payroll information associated with           We footed the payroll information associated with
three RITS submissions selected.                           the RITS submissions without exception.

Trace employee withholding information shown               We traced the footed payroll withholding and
on the payroll register or derived from files footed       contributions to the corresponding amounts on
above for retirement, health, and life insurance           RITS submissions selected for the AUP. The
benefits (as adjusted for reconciling items) to the        results show small variances for which the APO
related amounts shown on the RITS submission               cannot explain. The variances are as follows:
for the corresponding period.
                                                                            Percent          Percent
                                                           Pay Period 24    Withholding      Contribution
                                                           Life Insurance             -0.074           -0.074
                                                           Health Benefits      0.387                   0.400
                                                           Retirement -CSRS    -0.032                  -0.031
                                                           Retirement- FERS    -0.085                  -0.084

                                                           Pay Period 02
                                                           Life Insurance       0.000          0.000
                                                           Health Benefits      0.467          0.480
                                                           Retirement - CSRS    0.000          0.000
                                                           Retirement- FERS      0.000         0.000

                                                           Pay Period 06
                                                           Life Insurance       0.000           0.000
                                                           Health Benefits      0.590           0.603
                                                           Retirement - CSRS    -0.014        - 0.014
                                                           Retirement - FERS     0.000          0.000

Obtain support for difference between amounts              Health Benefits - The Department stated some
shown on the payroll register or derived from the          variances occurred due to staff entering the
files footed above and amounts shown on the                wrong FEHB codes or employee cancels benefits
RITS submission selected.                                  but deductions continue in subsequent pay
                                                           periods.

                                                           Retirement - The Department could not provide
                                                           an explanation for the small variances.

                                                           Life Insurance -The Department could not
                                                           provide an explanation for the small variances.
Trace reconciling items to supporting                      We agreed the supporting detail reports to the
documentation and verify the agreement.                    amounts reported on the RITS submission for the
                                                           selected three pay periods.

Foot each RITS submission selected.                        We footed the RITS submission for the selected
                                                           pay periods without exception.


                                                       3
                               AGREED-UPON PROCEDURES

     Agreed-Upon Procedures Performed                                   Results of Procedures
Review the APO reconciliation of the payroll data          The APO prepares an IPS/DOLAR$ comparison
file to the general ledger accounts or if such a           report to reconcile the payroll data file with the
reconciliation does not exist, perform the                 general ledger. There were no unsupported
reconciliation.                                            differences. The APO will post the employer’s
                                                           share of contribution for Retirement, Health
                                                           Benefits, and Life Insurance as SGL 6400. The
                                                           employee’s share is a part of the employee’s
                                                           gross salary and it is reported in SGL 6100
                                                           (Current Operating Expenditure).

Randomly select a total of 25 individuals from the         We used the IPS database provided and extracted
payroll register or files footed above that have           the three selected pay periods using IDEA
retirement, health, and life insurance and at least        software. We agreed the universe with the
one optional life coverage.                                DOLAR$ at March 31, 2000. We then used
                                                           IDEA software to select a simple random sample
                                                           with no replacements of 25 employees.

Verify that the base salary shown on the payroll           We determined that the amount shown on the
register agrees with the approved amounts                  payroll register agrees with the approved amounts
reflected on the employees’ Personnel Action,              reflected on the employees’ Personnel Action,
SF-50 or SF-52.                                            SF-50.

For retirement withholdings (contributions), verify        For each sample item, we determined that the
that retirement withholdings for participants in the       retirement withholding was appropriate
Civil Service Retirement System (CSRS) and                 depending on which retirement plan the employee
Federal Employees Retirement System (FERS)                 was enrolled.
are the amounts required by law.

For health insurance withholdings (contributions),         For each of the sample items, we determined that
verify that the withholdings agree with the                the employees were enrolled in the plan selected
contribution rate or amount for coverage selected          by the employees. We verified any changes for
as documented in the employees’ personnel files.           FEHB processed through Employee Express.
If documentation is not available in the files,            The changes were updated in the Personnel
obtain an Employee Express (EE) Health Benefit             People Power System.
History report through the EE key representative.

For life insurance, including optional coverage,           For each sample item, we determined that the life
withholding (contributions), verify that the               insurance coverage agreed with the employees’
contributions agree with the contribution rate             personnel records.
(amount) for the coverage selected as
documented by a Life Insurance Election Form in
the employees’ personnel files.




                                                       4
                              AGREED-UPON PROCEDURES

     Agreed-Upon Procedures Performed                               Results of Procedures
Randomly select a total of 10 employees who do         We used the IPS database provided and extracted
not have either health insurance withholdings or       the three selected pay periods using IDEA
life insurance withholdings from the payroll           software. We agreed with the universe in
register or related files footed.                      DOLAR$ at March 31, 2000. We then used
                                                       IDEA software to select a simple random sample
                                                       with no replacements of 10 employees.

Verify from a review of personnel records the          For each sample item, we determined that signed
employees elected to be excluded from health           waivers were on file in the employees’ personnel
insurance coverage. Obtain confirmation from           folders. We verified any changes for FEHB
Employee Express that no election was made by          processed through Employee Express. The
this means.                                            changes were updated in the Personnel People
                                                       Power System.

Verify from a review of personnel records the          For each sample item, we determined that
employees elected to be excluded from life             signed waivers or signed documents canceling
insurance coverage.                                    coverage were on file in the employees’
                                                       personnel folders.

Recalculate the head count reflected on the            We recalculated the Supplemental Semiannual
Supplemental Semiannual Headcount Report               Headcount Report for pay date March 22, 2000.
selected for testing.

Have APO personnel perform the payroll system          The APO personnel performed a system query
queries that summarize detail payroll data.            and provided the summarized detail payroll data
                                                       for pay period 06.

Calculate the head count by counting the number        We counted the number of employees in the IPS
of employees on the payroll data file for the          database for the corresponding period.
period.
Compare the calculated head count with the             The totals that appeared on the summary
summary information queried and information            information disagreed with the headcount report.
shown on the headcount report.                         There was a 3.05 percent variance between the
                                                       headcount report and the calculated head count.

Report any differences greater than 2 percent          The difference of 3.05 percent was brought to the
between the head count reporting.                      Department’s attention. The Department is
                                                       unable to explain the difference at this time. The
                                                       reported headcount was greater than the
                                                       calculated headcount.




                                                   5
                              AGREED-UPON PROCEDURES

     Agreed-Upon Procedures Performed                                 Results of Procedures
For the three pay periods selected, determine the       We calculated the total number of employees for the
total number of employees enrolled in each              following: each retirement plan (CSRS, Offset, and
retirement plan (CSRS and FERS) and the                 FERS), each health plan, and life insurance option.
                                                                                    PP 24    PP 02   PP 06
corresponding payroll base subject to the
                                                        CSRS                        6,813    6,723    6,675
respective contribution rate, the total number of
                                                        FICA                          140      180     130
employees enrolled in each health insurance plan        None                            18       5        3
and plan options, and the total number of               CSRS Law Enforcement          139      134     132
employees enrolled in each life insurance option        Offset                        507      512     515
and base plan and corresponding total life              Offset Law Enforcement           7       6        6
insurance base pay.                                      Total CSRS                 7,624    7,560   7,461

                                                        FERS                    8,156      8,186    8,172
                                                        FERS Law Enforcement      119        119      124
                                                        Total FERS              8,275      8,305    8,296
                                                        Total Number of Employees          15,899   15,865    1
                                                                                                              5
                                                                                                              ,
                                                                                                              7
                                                                                                              5
                                                                                                              7

Calculate the total retirement employee                 The calculated total employee withholdings and
withholding and employer contributions for the          agency contributions for the selected pay periods
three pay periods selected.                             are:
                                                                         Employee           Agency
                                                        Pay Period       Withholding       Contribution

                                                         24               $1,403,446       $ 3,179,535
                                                         02                1,492,756         3,311,416
                                                         06                1,499,742         3,330,507




                                                    6
                              AGREED-UPON PROCEDURES

     Agreed-Upon Procedures Performed                                   Results of Procedures
Multiply the CSRS and FERS payroll base by the           We used the following rates to determine the
withholding and employer contribution rate               withholdings and contributions:
required by law.                                                               Pay Period 24
                                                                                    Employee         Agency
                                                                                    Rate (Percent)   Rate (Percent)

                                                         CSRS                         7.25            8.51
                                                         CSRS Law Enforcement         7.75            9.01
                                                         Offset                       1.05            8.51
                                                         Offset Law Enforcement       1.55            9.01
                                                         FERS                         1.05           10.70
                                                         FERS Law Enforcement         1.55           23.30

                                                                          Pay Periods 02 & 06
                                                                                    Employee         Agency
                                                                                    Rate (Percent)   Rate (Percent)
                                                         CSRS                        7.40             8.51
                                                         CSRS Law Enforcement        7.90             9.01
                                                         Offset                      1.05             8.51
                                                         Offset Law Enforcement      1.55             9.01
                                                         FERS                        1.2             10.70
                                                         FERS Law Enforcement        1.70            23.30

                                                                                     Employee         Agency
                                                         Plan     Pay Period        Withholding      Contribution
                                                         CSRS         24            $ 1,244,234      $ 1,536,603
                                                         FERS         24                159,211        1,642,933
                                                         CSRS         02              1,300,835        1,576,846
                                                         FERS         02                192,921        1,734,570
                                                         CSRS         06              1,306,600        1,584,302
                                                         FERS         06                193,142        1,746,205

Compare the calculated totals above with the             We compared the total CSRS and FERS and the
related amounts shown on the RITS submissions.           variances are below the 5 percent threshold.
Report any variances greater than 5 percent.

Calculate the health insurance withholdings and          For the health insurance, we calculated the
employer contribution for the three pay periods by       employee withholdings and agency contribution
multiplying the number of employees enrolled in          for the three pay periods.
each health plan and option plan by the employee
and employer premiums for the plan and options.

Sum the totals above and compare with the health         We compared the calculated employee
insurance withholding and contribution amounts           withholdings and the agency contribution to the
shown on the RITS submissions. Report any                amount reported in the IPS database. There are
variances greater than 5 percent.                        no variances greater than 5 percent.

Calculate the basic life insurance employee              We calculated the basic life insurance employee
withholding and employer contribution for the            withholding and employer contribution for the
three pay periods selected.                              three pay periods.



                                                     7
                               AGREED-UPON PROCEDURES

     Agreed-Upon Procedures Performed                                  Results of Procedures
Request APO perform a payroll system query to             The OCFO provided the payroll database. We
determine the total number of employees with              determined the total number of employees with
Basic Life Insurance Program coverage and the             Basic Life Insurance Program coverage and the
aggregate annual basic pay for such employees.            aggregate annual basic pay for such employees.

For employee withholdings: Add the product of             We performed AUP procedures to determine the
2,000 times the number of employees with the              estimated withholdings for Basic Life Insurance.
basic coverage to the total base pay for all              The results were that there were no variances to
employees selected. (Estimated total basic life           report. All the variances were below 5 percent.
insurance coverage.) Divide this total by 1,000
and multiply by $0.155. Compare the results and
report any difference between the estimate and
the amount of withholdings reported on the RITS
submissions greater than 5 percent.

For agency contributions: Divide results above by         We performed AUP procedures to determine the
one-half. This approximates employer                      estimated contributions for Basic Life Insurance.
contributions, which are one-half of employee             The results were that there were no variances to
withholdings. Compare the results and report any          report. All the variances were below 5 percent.
differences greater than 5 percent.

Calculate the Options A and C coverage                    The APO was able to provide the number of
withholding for the three pay periods selected by         employees, by age group who elected the life
using the results of payroll system queries or have       insurance Options A and/or C. We then
the APO provide the number of employees, by               calculated the withholding.
age group who elected Options A and C during
the selected pay periods.          Report any              PP             Option A        Option C
variance greater than 2 percent.
                                                          24              $ 7,863         $ 3,964
                                                          02                7,708           3,933
                                                          06                7,825           3,983


                                                          The variance was less than 2 percent.




                                                      8
